BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 20-6786, Erica
Yvonne Sheppard v. Bobby Lumpkin, Director, Texas
Department of Criminal Justice, Correctional
Institutions Division, was sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent Next
Day Service and e-mail to the following parties listed
below, this 22nd day of April, 2021:
Matthew Hamilton Frederick
Deputy Solicitor General
Office of the Attorney General of Texas
P.O. Box 12548
Austin, TX 78711-2548
(512) 936-6407
matthew .frederick@oag. texas. gov
Counsel for Respondent

William Alan Wright
Counsel of Record
Kilpatrick Townsend & Stockton, L.L.P.
Suite 4400
2001 Ross Avenue
Dallas, TX 75201
(214) 922-7131
alan.wright@kilpatricktownsend.com

(800) 890.5001

8790 Governor's Hill Drive
Suite 102

www.beckergallagher.com

Cincinnati, Ohio 45249

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Kevin M. Bell
Kilpatrick Townsend & Stockton, L.L.P.
Suite 600
1400 Wewatta Street
Denver, CO 80202
(303) 571-4321
kbell@kilpatricktownsend.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 22, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

u.J~J dd-- 1 dOd-(

Jv1u IJ ' /J~ ~

Notary Public

"-.J

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
rt.~n13ry 14, 2023

